   DEPARTMENT OF HOMELAND SECURITY

         Office of Inspector General


        A Review of U.S. Citizenship and
       Immigration Services’ Alien Security
                    Checks




      Office of Inspections and Special Reviews

OIG-06-06                             November 2005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
DHS oversight responsibility to promote economy, effectiveness, and efficiency within the
department.

This report assesses the strengths and weaknesses of the use of security checks by U.S. Citizenship
and Immigration Services when processing applications for immigration benefits. It is based on
interviews with employees and officials, direct observations, and a review of applicable documents.

The recommendations have been developed to the best knowledge available to the OIG, and have
been discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Contents


  Executive Summary ...................................................................................................................... 1

  Background ................................................................................................................................... 2

  Results of Review .......................................................................................................................... 5

       Scope of security checks should be improved with biometrics and strategic planning............ 5

       USCIS should continue to improve accuracy and timeliness of check completion ............... 15

       USCIS can administer security checks more efficiently......................................................... 28

  Recommendations ........................................................................................................................ 35

  Management Comments and OIG Evaluation ............................................................................. 36


Appendices
  Appendix A:            Purpose, Scope and Methodology ...................................................................... 39
  Appendix B:            Management Response to Draft Report ............................................................. 40
  Appendix C:            Security Checks for USCIS Immigration Forms ............................................... 43
  Appendix D:            Major Contributors to Report ...............................................................................46
  Appendix E:            Report Distribution............................................................................................. 47


Abbreviations
  BCS                    Background Check System
  BSS                    Biometric Storage System
  CBP                    Customs and Border Protection
  CIO                    Chief Information Officer
  DHS                    Department of Homeland Security
  DOJ                    Department of Justice
  EOIR                   Executive Office for Immigration Review
  FDNS                   Office of Fraud Detection and National Security
  FY                     Fiscal Year
  GAO                    Government Accountability Office
  HSPD                   Homeland Security Presidential Directive
  IAFIS                  Integrated Automated Fingerprint Identification System



                                         A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
Contents

  IBIS         Interagency Border Inspection System
  ICE          Immigration and Customs Enforcement
  IDENT        Automated Biometric Identification System
  INS          Immigration and Naturalization Service
  ISRS         Image Storage and Retrieval System
  IT           Information technology
  NAILS        National Automated Immigration Lookout System II
  OIG          Office of Inspector General
  RAPS         Refugee Asylum and Parole System
  SOP          Standard operating procedure
  USCIS        United States Citizenship and Immigration Services
  US-VISIT     United States Visitor and Immigrant Status Indicator Technology


Figures
  Figure 1:   USCIS Quality Assurance – Errors Found ......................................................... 17
  Figure 2:   OIG Sampling Results – Total Errors Found ....................................................... 18
  Figure 3:   OIG Sampling Results –Type of Errors Found ....................................................19
  Figure 4:   Security Checks for USCIS Immigration Forms ...................................................43




                            A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary
                          The staff of the National Commission on Terrorist Attacks upon the United
                          States reported that the Immigration and Naturalization Service’s “inability to
                          adjudicate applications quickly or with adequate security checks made it
                          easier for terrorists to wrongfully enter and remain in the United States
                          throughout the 1990s.” 1 The full Commission recommended:

                                   The Department of Homeland Security, properly supported by
                                   the Congress, should complete, as quickly as possible, a
                                   biometric entry-exit screening system, including a single
                                   system for speeding qualified travelers. It should be integrated
                                   with the system that provides benefits to foreigners seeking to
                                   stay in the United States. Linking biometric passports to good
                                   data systems and decision making is a fundamental goal. No
                                   one can hide his or her debt by acquiring a credit card with a
                                   slightly different name. Yet today, a terrorist can defeat the
                                   link to electronic records by tossing away an old passport and
                                   slightly altering the name in the new one.2

                          The Immigration and Naturalization Service (INS), followed by U.S.
                          Citizenship and Immigration Services (USCIS), made multiple changes over
                          the past decade to improve the adequacy of security checks, detect applicants
                          who pose risks to national security and public safety, deter benefits fraud, and
                          ensure that benefits are granted only to eligible applicants.

                          As part of its ongoing responsibilities to evaluate the effectiveness of
                          Department of Homeland Security (DHS) programs and activities, the Office
                          of Inspector General (OIG) conducted a review of USCIS security check
                          activities. Our review assessed whether USCIS (1) selected security checks of
                          appropriate scope; (2) properly completed checks and concluded them with
                          timely referrals and denials when appropriate; and (3) conducted the checks in
                          an efficient manner. The scope and methodology of this review are discussed
                          in Appendix A.

1
  9/11 and Terrorist Travel, staff report of the National Commission on Terrorist Attacks upon the United States, p. 99,
August 21, 2004.
2
  The 9/11 Commission Report, National Commission on Terrorist Attacks upon the United States, p. 389, July 22, 2004.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                       Page 1
             USCIS has several significant changes planned and underway for the conduct
             of security checks. The Office of Fraud Detection and National Security
             (FDNS), created in May 2004, has begun to provide centralized support and
             policy guidance for security checks. In addition, USCIS has two automated
             systems in development–the Background Check System and Biometric
             Storage System–that could streamline how USCIS runs, documents, and
             monitors checks.

             Security checks need continued management attention. First, USCIS’ security
             checks are overly reliant on the integrity of names and documents that
             applicants submit; consequently, better use of biometric data is needed to
             verify applicants’ identity. USCIS has not developed a measurable, risk-based
             plan to define how USCIS will improve the scope of security checks. Second,
             except for a small number of benefits, USCIS’ management controls are not
             comprehensive enough to provide assurance that staff completes checks
             correctly. For a minority of cases, slow, inconclusive, or legally inapplicable
             security check results cause applications to stall, but USCIS is pursuing
             several solutions to conclude stalled cases. Finally, USCIS needs improved
             automation to eliminate paper-based, duplicative, and inefficient security
             check processes. Because USCIS’ management of security checks is still
             somewhat decentralized, more coordination will be required to ensure
             efficient progress in implementing the changes USCIS envisions.

             We are recommending that USCIS: 1) expand the use of biometric
             identification techniques; 2) establish a comprehensive, risk-based plan for the
             selection and completion of security checks; 3) set objectives for the conduct
             and completion of checks and organize management controls to ensure they
             are met; 4) implement the Background Check Analysis Unit, Background
             Check System, and Biometric Storage System; and 5) define accountability
             and timelines for implementing these changes.


Background
             On January 24, 2003, USCIS was created as part of the Department of
             Homeland Security. Along with Customs and Border Protection (CBP) and
             Immigration and Customs Enforcement (ICE), USCIS became responsible for
             providing services formerly provided by the Immigration and Naturalization
             Service. USCIS processes over 50 types of benefits for immigrants and non-
             immigrants, including citizenship, asylum, legal permanent residence, work


                     A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                        Page 2
                            authorization, and extension of stay. In Fiscal Year (FY) 2004, USCIS
                            completed approximately 7.3 million benefit applications and received 5.9
                            million more. Five large processing centers managed most applications, but
                            others were processed in more than 33 district offices and sub-offices, eight
                            asylum offices, and USCIS headquarters. USCIS’ FY 2004 budget of $1.8
                            billion was composed of $236 million in appropriated funds and about $1.6
                            billion in fee revenues.

                            USCIS’ first of six strategic goals is to ensure the security and integrity of the
                            immigration systems, noting that “a secure homeland depends on the integrity
                            of our immigration system.”3 During the benefit application process, USCIS
                            conducts security checks in order to prevent ineligible applicants from
                            obtaining benefits and to help law enforcement agencies identify people who
                            pose risks to national security or public safety. Depending on the application
                            submitted, USCIS conducts up to four different types of security checks:

                                •    Interagency Border Inspection System name checks (IBIS).
                                     Managed by CBP, IBIS is a database of lookouts, wants, warrants,
                                     arrests, and convictions consolidated from over 20 agencies. A
                                     complete IBIS query also includes a concurrent check of selected files
                                     in the Federal Bureau of Investigation’s (FBI) National Criminal
                                     Information Center. USCIS began conducting automated, name-based
                                     queries of IBIS for all USCIS applications in 2002. With an average
                                     of 3.7 names per application to check,4 USCIS conducted over 27
                                     million IBIS checks in FY 2004.

                                •    FBI fingerprint check. The FBI’s Integrated Automated Fingerprint
                                     Identification System (IAFIS) matches criminal history records from
                                     federal, military, and most state apprehensions. USCIS collects and
                                     electronically submits applicants’ fingerprints for selected benefits
                                     such as naturalization, permanent residence, and asylum. IAFIS has
                                     been in place since 1999; before that time, INS manually submitted
                                     fingerprint cards for criminal history records checks. USCIS
                                     submitted 1.9 million fingerprints at a cost of $31.9 million in FY
                                     2004.

                                •    FBI name check. This partially automated, name-based check
                                     searches over 86 million files documenting people who are the main

3
    USCIS Strategic Plan: Securing America’s Promise, p. 6, 2005.
4
    Additional names per application may include family members and aliases, such as married names.


                                     A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                        Page 3
                                 subject or referenced in an FBI investigation. USCIS electronically
                                 submits applicant names to the FBI National Name Check Program for
                                 benefits such as naturalization, permanent residence, and asylum. The
                                 legacy INS queried the main files since 1985 but added reference files
                                 to security checks in 2002. USCIS submitted 1.5 million names at a
                                 cost of $6.0 million in FY 2004.

                             •   Automated Biometric Identification System (IDENT). Asylum
                                 offices have used this automated fingerprint identification system since
                                 1998. Managed by US-VISIT, IDENT enables agencies to screen
                                 fingerprints against several different database repositories. USCIS
                                 enrolls aliens applying for asylum in the IDENT-Asylum database,
                                 screening them against previously enrolled asylum applicants, the
                                 immigration lookout database of criminal aliens, and the immigration
                                 recidivist database of repeat immigration offenders. Asylum offices
                                 completed approximately 146,000 applications receiving this three-
                                 part check in FY 2004.

                         Appendix C summarizes which checks selected forms receive. In addition,
                         depending on the benefit, USCIS checks administrative systems to review
                         applicants’ prior immigration history, entry and exits into the United States,
                         student records, and immigration court records. When checks result in
                         confirmed derogatory information, USCIS has an established process for
                         completing the cases with denials and referrals to fraud investigators, law
                         enforcement, and the immigration courts.

                         USCIS’ current structure for conducting security checks has undergone many
                         changes during the past decade. Previous Government Accountability Office
                         (GAO) and OIG reports criticized the INS for its failure to complete
                         fingerprint checks, failure to review check results during adjudication,
                         inadequate controls to deter impostor applicants, inadequate security check
                         procedures and training, and an improper emphasis on productivity at the
                         expense of accuracy in determining whether applicants were eligible for
                         benefits.5 INS, and later USCIS, made multiple changes to the security check
                         process to control the conduct and use of security checks. These include the

5
 Alien Fingerprint Requirements in the Immigration and Naturalization Service, Department of Justice (DOJ) OIG
Report Number I-93-13, February 1994; INS Fingerprinting of Aliens: Efforts to Ensure Authenticity of Aliens'
Fingerprints, GAO-GGD-95-40, December 22, 1994; INS Criminal Record Verification: Information on Process for
Citizenship Applicants, GAO-GGD-97-118R, June 4, 1997; An Investigation of the Immigration and Naturalization
Service's Citizenship USA Initiative, DOJ OIG, July 2000; and Immigration And Naturalization Service's Premium
Processing Program, DOJ OIG Report Number 03-14, February 2003.


                                  A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                     Page 4
                creation of application support centers to collect applicant fingerprints and
                naturalization quality procedures to guide adjudicators. A more recent change
                is USCIS’ May 2004 creation of the Office of Fraud Detection and National
                Security to provide centralized support and policy guidance for security
                checks and anti-fraud operations.

                USCIS continues to operate under production pressures, decreasing a FY 2003
                backlog of approximately 3.7 million applications to less than one million by
                June 30, 2005. USCIS publicly attributed part of the backlog accumulation to
                the 2002 addition of IBIS name checks for all applications. Without
                compromising security, USCIS plans to eliminate the backlog by the end of
                FY 2006.


Results of Review
Scope of security checks should be improved with biometrics and
strategic planning
                USCIS standards for verifying applicant identity are vulnerable to fraud,
                which lessens the reliability of security checks based on those identities.
                USCIS intends to increase use of biometric identification but has no defined
                plans to do so. However, key changes in screening policy integration and
                information technology (IT) systems design and access are outside USCIS
                control. In order to align the layers of immigrant screening, and ensure
                USCIS’ access to immigrant and screening data sources, greater DHS
                coordination is needed.

     USCIS needs to do more to verify applicants’ identity
                The security and integrity of USCIS’ benefits process is overly reliant on the
                integrity of applicants to provide accurate information about their identity and
                history. The majority of USCIS security checks examine information that
                applicants provide: names, dates and places of birth, and other biographic
                information. Name-based checks are necessary to query records such as those
                in IBIS, but they are vulnerable to identity fraud and have several other
                weaknesses. USCIS supplements name-based checks with automated and
                manual biometric checks using IDENT, IAFIS, the Image Storage and
                Retrieval System (ISRS), and paper records. Biometric checks help to verify
                identity and improve the accuracy of security check results. However, less


                        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                           Page 5
                            than a quarter of USCIS’ application workload is subject to fingerprint
                            checks; and only two percent receive automated biometric checks that verify
                            identity throughout the application process. USCIS is building a Biometric
                            Storage System (BSS) that will support using fingerprints in identity
                            verification. Other plans to expand biometric checks require definition.

                            Relevance and accuracy of name-based security checks

                            Name-based checks are the majority of USCIS’ security check workload.
                            They enable USCIS to review a wide variety of lookout and criminal history
                            records. Depending on the benefit involved, USCIS must determine whether
                            applicants meet adjudicative standards related to national security, criminal
                            history, and even good moral character. Therefore, USCIS considers
                            beneficial the broad, name-based checks of FBI investigative files and IBIS,
                            which includes records from over 20 agencies. Checking one of IBIS’s
                            sources alone, such as the FBI’s Terrorist Screening Database, would not
                            provide USCIS with the broad range of information relevant to adjudication.
                            USCIS screens all applicants against IBIS, about 7.3 million completed
                            applications in FY 2004. Depending on the benefit, a portion of applicants
                            also receives the FBI name check and name-based checks against
                            administrative records such as the Student and Exchange Visitor Information
                            System. These systems do not support queries based on fingerprints or other
                            biometric information.

                            However, the name-based checks are only as accurate as the supporting
                            biographic information used to conduct them. For several reasons, USCIS has
                            little assurance that the supporting biographic information is accurate and
                            matches the identity of the applicant. First, the information is self-reported by
                            applicants, who have an incentive to falsify the information to obtain benefits
                            if they are not otherwise eligible. Second, U.S. documents that support the
                            self-reported information, such as birth certificates and driver’s licenses, are
                            easy to falsify6–and USCIS accepts documents from all other countries. Plus,
                            in many cases, USCIS accepts photocopied documents, which are more easily
                            altered than originals. Third, USCIS does not routinely verify identity with
                            alternative means, such as contacting bureaus of vital statistics to confirm
                            birth certificates or crosschecking addresses with national records. GAO
                            reported that alien use of fraudulent documents and identity theft is
                            “extensive,” and the staff of the National Commission on Terrorist Attacks
6
 GAO reported that its staff “easily” created fictitious identities and obtained driver’s licenses, birth certificates, and
social security cards, using computer equipment “readily available to any purchaser.” Security: Counterfeit
Identification Raises Homeland Security Concerns, GAO-04-133T, p. 1, October 1, 2003.


                                      A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                         Page 6
                          reported multiple instances of terrorists obtaining and using fraudulent
                          identity documents.7

                          The effectiveness of name-based checks is further limited by how the checks
                          are run. Because of the manual data entry involved in creating and searching
                          the records, misspellings and typographical mistakes can skew results. When
                          people change their names, such as after marriage, the search may miss
                          criminal records associated with the old names. Transliterations of non-
                          English and hyphenated spellings also complicate name-based searches.
                          Finally, name-based checks create a processing burden to sort through hits
                          that do not relate to the applicant searched, which occurs frequently with
                          common names. After an analysis comparing name-based and fingerprint-
                          based checks of criminal history records, the FBI reported, “The great weight
                          of the evidence supports the FBI and the CJIS APB's [Criminal Justice
                          Information Services Advisory Policy Board] conclusion that a name check of
                          criminal history record systems is a ‘rough’ process which produces many
                          ‘false negatives’ (in which a criminal is not identified) and ‘false positives’ (in
                          which an individual without a criminal record is identified as having a
                          record).”8

                          Limited use of biometric checks

                          Biometric information–photographs, fingerprints, iris scans, and other
                          identifiers–provides a more reliable means of verifying identity and querying
                          screening databases because people’s biometrics are unique and more difficult
                          to falsify. They limit identity fraud as well as reduce false positive and false
                          negative screening results. USCIS collects photographs with many
                          applications but does not have a system for automated, facial recognition
                          screening. Most of the biometric checks USCIS conducts involve
                          fingerprints, which USCIS collects for about a quarter of its applications.
                          Fingerprints enable USCIS to screen applicants against existing FBI and DHS
                          databases.

                               •   The Automated Biometric Identification System (IDENT). About
                                   two percent of applications completed in FY 2004 were screened in
                                   IDENT. By comparing the stored biometric data with fingerprints and

7
  Identity Fraud: Prevalence and Links to Alien Illegal Activities, GAO-02-830T, p. 1, June 25, 2002; 9/11 and Terrorist
Travel, staff report of the National Commission on Terrorist Attacks upon the United States, August 21, 2004.
8
  House Judiciary Subcommittee on Crime Regarding H.R. 3410 and Name Check Efficacy, Hearing on Crime
Regarding HR 3410 and Name Check Efficacy, May 18, 2000 (statement of David R. Loesch, Assistant Director in
Charge, Criminal Justice Information Services Division, FBI).


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                       Page 7
                                   photographs that applicants resubmit at several points during the
                                   application process, the Asylum Branch “locks” an applicant’s identity
                                   to a single set of biometric and biographic information. This helps the
                                   Asylum Branch to prevent impostors from interviewing or collecting
                                   asylum decisions, to identify applicants who apply under more than
                                   one name, and to find and consolidate multiple application files. Staff
                                   said that IDENT has been very useful in reducing duplicate filings
                                   since its implementation in 1998. In FY 2004, the Asylum Branch’s
                                   screening against three IDENT databases (asylum enrollees,
                                   immigration lookouts, and immigration recidivists) yielded 2,000
                                   confirmed hits, mostly immigration recidivists.

                                   On an exception basis, when other security checks reveal derogatory
                                   information and the applicant’s identity is in question, some district
                                   office staff screen a walk-in applicant’s fingerprints with IDENT
                                   equipment left over from the 2002-2003 National Security Entry/Exit
                                   Registration.9 However, this is an unofficial practice. District offices
                                   do not store and re-check fingerprints to “lock” applicant identity as
                                   asylum offices do.

                              •    FBI fingerprint check. Through IAFIS, USCIS submits applicants’
                                   fingerprints to the FBI for a biometric check against criminal history
                                   records from federal, military, and most state apprehensions. As the
                                   FBI reported, the fingerprint-based check is more accurate than a
                                   name-based check of these records. USCIS conducted 1.9 million
                                   fingerprint checks in FY 2004; we calculated that almost a quarter of
                                   that year’s completed applications included this check. Even though it
                                   is fingerprint-based, this check has limited ability to verify applicants’
                                   identity because the FBI does not keep fingerprints to crosscheck them
                                   against USCIS’ previous submissions.10 USCIS’ fingerprint storage
                                   system is still in development.

                              •    Other biometric checks. For some cases, USCIS staff performs
                                   visual comparisons of photographs, fingerprints, and signatures stored
                                   in paper application files and the automated ISRS to help verify an
                                   applicant’s identity. Manual review of biometric information occurs
                                   for about half of the application workload and before fingerprint
9
  The INS deployed IDENT-ENFORCE (Enforcement Case Tracking System) equipment to district offices to collect
fingerprints and register aliens from selected countries. CBP and ICE now administer this program.
10
   USCIS checks are considered administrative. The FBI does not keep fingerprints on file unless they were checked for
criminal purposes.


                                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 8
       collection at application support centers. Manual checks are slower
       and more vulnerable to error than automated ones, and they are not
       readily accessible to all staff. Staff said that paper applications are
       rarely on hand for immigration information officers handling walk-in
       appointments, and even adjudicators are sometimes unable to obtain
       files stored in different offices. In addition, staff we interviewed in
       late 2004 was still seeking access to ISRS, which the 2003 Security
       Matrix Project Recommendations Report encouraged USCIS to
       expand.

The government is moving toward greater use of biometric screening.
Homeland Security Presidential Directive (HSPD) 11, “Comprehensive
Terrorist-Related Screening Procedures,” directed the Secretary of Homeland
Security and an interagency working group to submit to the President a plan to
improve terrorist-related screening that includes security features “that resist
circumvention to the greatest extent possible” and that defines what identifiers
to use in screening, including biometric ones. As of October 2004, the
Department of State collects fingerprints and photographs from all visa
applicants, about 7 million per year, to screen against IDENT. For applicants
exempt from fingerprinting, such as children under 14, the Department of
State conducts automated facial recognition screening, which along with the
fingerprinting, serves to lock identity. Between October 2004 and March
2005, the system identified almost 5,000 mala fide applicants. The biometrics
collected by the Department of State are linked with United States Visitor and
Immigrant Status Indicator Technology (US-VISIT), which also uses IDENT
technology, and screens applicants with biometric identifiers.

USCIS’ limited ability to verify and lock applicants’ identity poses several
problems. Without automated biometric identification, establishing that the
hit from a name-based check matches the identity of the applicant can be
labor-intensive. For example, USCIS reported that one service center required
an average of 5.4 additional database queries to verify an identity match for
each positive IBIS name check. Delays in obtaining file biometric
information to verify identity can interfere in acting on lookouts and warrants.
An immigration information officer reported an instance when he could not
obtain a file containing biometric information in time to verify a walk-in
applicant’s identity so that he could act on a security hit’s warrant before the
day’s appointments ended and the applicant departed. The ultimate problem
caused by limited identity verification, however, is that USCIS may provide
ineligible aliens with benefits. Staff said rescission or revocation of benefits
is rare and has a high legal threshold. Furthermore, a benefit from USCIS


        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                           Page 9
           assists aliens in applying for other benefits–driver’s licenses, social security
           numbers, bank accounts, and in some states, gun licenses–enabling the alien to
           embed into society legally.

           The ten-year business and information technology modernization plans that
           INS’s Immigration Services published in 2001 support increased use of
           biometrics, as does the USCIS Strategic Plan issued in 2005. USCIS has not
           developed a risk-based plan that outlines how, when, and for what benefits
           expansion should occur, or that assigns accountability, timelines, and
           milestones for plan implementation. Nevertheless, USCIS is expanding its
           biometric capacity on an ad hoc basis. In late 2004, USCIS added
           fingerprinting for temporary protected status holders re-registering for
           benefits. In spring 2005, USCIS awarded a contract to build, test, and
           implement BSS to store applicant fingerprints and photographs. Under
           development for several years, BSS will support FBI fingerprint checks and
           will potentially compare BSS biometrics with alien biometrics in US-VISIT
           collected by the Department of State and CBP.

           Senior officials said that USCIS’ use of biometrics has been constrained by
           the capacity of application support centers to collect the data. Application
           support centers collected 1.9 million fingerprint submissions in FY 2004,
           while USCIS’ full application volume was about 5.9 million receipts. Staff
           said that most application support centers could process more applicants, but
           they are limited by an inefficient computerized scheduling system and labor.
           Staff estimates that consolidating the five-part scheduling system could
           increase capacity by more than a million appointments per year. Draft
           information technology architecture documents from the Chief Information
           Officer discuss improving the scheduling system. USCIS is adding 173
           federal and contract staff to application support centers in FY 2005.

USCIS should develop a comprehensive, strategic plan for enhancing
security checks
           Since 2001, USCIS has made a number of changes to enhance the coverage of
           security checks for immigration benefits applicants. The changes USCIS has
           made to the content of security checks have been reactions to perceived gaps,
           a 2003 review, and separate office initiatives. There is no apparent effort to
           develop a strategic plan for selecting and conducting security checks. USCIS
           needs to develop such a plan, using risk assessment to prioritize efforts and
           allocate screening resources.




                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                     Page 10
                          In response to incidents in 2001 and 2002 involving benefits granted to
                          members of terrorist groups, staff added IBIS checks for all applications,
                          greater use of entry-exit data, and FBI name check screening of reference
                          files.11 In 2003, USCIS subject matter experts reviewed the battery of
                          administrative and security checks to identify additional check needs and
                          redundancies.12 The resulting report recommended retaining existing IBIS
                          and FBI name checks, expanding biometric checks, and increasing
                          adjudicators’ access to databases for further, optional checking. USCIS
                          implemented several of its recommendations, such as increasing the validity
                          period of IBIS checks from 35 to 90 days.13 Some recommendations were not
                          completed, and at the time of our review, no staff was monitoring their
                          implementation. However, discrete initiatives from FDNS and other offices
                          continue to refine the security check structure. For example, the Asylum
                          Branch recently added FBI name checks of asylum applicants’ aliases.

                          USCIS has not used more comprehensive program analysis to allocate
                          screening resources and develop a plan for security checks. In essence,
                          USCIS has not determined whether the resources used for certain checks
                          might be used to greater effect with other checks. USCIS has limited program
                          and performance information in order to make such a determination. For
                          example, there is no statistically valid measurement of the prevalence of mala
                          fide applicants in different application pools.14 In addition, USCIS has
                          collected little measurement information on the effectiveness of different
                          checks. USCIS’ automated systems do not provide program management
                          information that ties together security check results and adjudication
                          outcomes. FDNS is beginning to develop both types of information. Through
                          the Benefits Fraud Assessment, expected to be completed in 2005, FDNS has
                          begun to measure the frequency of mala fide applicants for six benefits that
                          staff considers historically prone to fraud or high-risk.15 Also in 2005, FDNS
                          began manually to collect information on adjudication outcomes associated
                          with a sample of positive FBI name checks.



11
   The Immigration and Naturalization Service’s Contacts with Two September 11 Terrorists: A Review of the INS’s
Admissions of Mohamed Atta and Marwan Alshehhi, its Processing of their Change of Status Applications, and its
Efforts to Track Foreign Students in the United States, DOJ OIG, May 20, 2002; Review of the Circumstances
Surrounding the Naturalization of an Alien Known to be an Associate of a Terrorist Organization, INS Office of Internal
Audit, December 13, 2002.
12
   USCIS, “Security Matrix Project Recommendations Report,” May 2003.
13
   Increasing the validity period reduced the number of IBIS checks USCIS conducts.
14
   Immigration Benefit Fraud: Focused Approach is Needed to Address Problems, GAO-02-66, January 31, 2002.
15
   USCIS processes over 50 types of benefits.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 11
           Changes to the security check structure should be guided by these kinds of
           analyses and a comprehensive, prioritized plan that assigns accountability and
           timelines for implementation. For example, although USCIS has intended to
           expand biometric identification since at least 2001, it has not determined when
           and for which forms biometric checks should be added, and it is not clear who
           is responsible for the determination. To improve its ad hoc arrangement for
           enhancing security checks, USCIS should 1) assess the risks posed by
           different applicant types and the effectiveness of checks in addressing that
           risk; 2) select improvements that maximize the benefit to the integrity of the
           immigration system while managing cost; and 3) plan for any improvements
           by assigning accountability and timelines, in order to ensure aggressive
           progress and results in meeting objectives.

Need for Increased DHS Role
           The comprehensiveness of any USCIS plan will be limited by its dependence
           on systems and policies developed outside of USCIS. In order to align the
           layers of immigrant screening, and ensure USCIS’ access to immigrant and
           screening data sources, greater DHS coordination is needed.

           The plans and policies of US-VISIT, CBP, and ICE shape the checks USCIS
           conducts:

              •   The US-VISIT systems architecture houses the biometric data that
                  USCIS collects for asylum applicants and plans to collect for other
                  applicants. US-VISIT has the potential to permit USCIS to screen
                  IDENT-Asylum and BSS enrollees against US-VISIT records of visas,
                  entries, and exits, in order to establish identity and travel history. This
                  capacity is not yet established, but US-VISIT staff began in 2005 to
                  discuss plans to link these databases.

              •   CBP manages the IBIS lookout system on which USCIS depends for
                  the majority of its security checks. Currently, CBP sets the user
                  profile that determines which IBIS records USCIS views. In
                  December 2004, CBP folded into IBIS the National Automated
                  Immigration Lookout System II (NAILS), which was USCIS’ primary
                  tool for managing lookouts and fraud alerts. CBP did not fully retain
                  NAILS features during the consolidation, reducing USCIS’ ability to
                  adjust lookout records with information such as changes of
                  immigration status that may resolve lookouts.




                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                     Page 12
   •   ICE sets the policy for security checks for aliens seeking benefits
       through Department of Justice’s (DOJ) Executive Office for
       Immigration Review (EOIR). USCIS staff conducts these security
       checks and provides documentation of status when the immigration
       court grants benefits. Previously, ICE had no standardized
       requirements for checking aliens applying for benefits through the
       courts, and USCIS completed checks according to its own standards
       before issuing documentation. Delays in completing USCIS security
       checks for court grantees exposed USCIS to several lawsuits. Starting
       in April 2005, ICE standardized a process that requires the completion
       of IBIS and FBI fingerprint checks and the initiation of FBI name
       checks. With limited exceptions, USCIS will no longer withhold
       documentation of status from court grantees until checks are complete
       according to USCIS standards.

DHS could do more to coordinate screening between its components. For
example, USCIS and ICE disagree about the cost-benefit of holding a case
until the FBI finalizes a pending response to name check hits, which takes
over six months for one percent of cases. For example, ICE security check
procedures allow an applicant to receive asylum while the FBI name check is
still pending, which means the FBI believes it has investigative records on the
applicant but has not completed collecting and reviewing them for transmittal
to ICE. In contrast, USCIS holds asylum applications until the FBI name
check is complete. Also, USCIS refused to provide documentation of status to
ICE-processed asylees until they passed an FBI name check, which USCIS
initiated for them. DHS headquarters and the Directorate of Border and
Transportation Security did not resolve the disagreement between USCIS and
ICE about whether waiting for completed FBI name checks has benefits
outweighing its costs. After discussions, USCIS agreed to continue to initiate
FBI name checks for its own and for ICE-processed applicants, but neither
agency will wait for ICE-processed applicants to pass the FBI name checks
before the case decision and documentation of status. Thus, screening
procedures for the same benefits are inconsistent. DHS should reconcile the
inconsistent interpretations of the check’s cost-benefits to improve security
and efficiency.

In coordinating screening, DHS may further assist USCIS by facilitating
information sharing, not only within DHS but also with the FBI and other
external agencies. The Memorandum of Understanding by which USCIS
accesses IBIS is a 1993 document between the INS and U.S. Customs. It
should be updated to clarify USCIS and CBP responsibilities for information


        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 13
                          sharing. The memorandum specifies that INS must have separate agreements
                          with the other users of IBIS in order to view their lookout records, which
                          raises the question of whether USCIS must recreate agreements since the 2003
                          division of INS, or whether other agreements within DHS provide USCIS
                          with lookout access. In another example, for several years USCIS asked the
                          FBI to remove restrictions on USCIS’ name-based queries of the National
                          Crime Information Center. Citing the Privacy Compact of 1988, the FBI
                          permits USCIS to submit fingerprint-based queries via IAFIS but restricts
                          name-based ones.16 USCIS argues that name-based queries provide
                          information more rapidly and efficiently. GAO recently reported that the
                          Department of State visa adjudication process would be more efficient with
                          greater access to these name-based queries.17 USCIS has been working with
                          the Department of State to gain access.

                          DHS should facilitate USCIS’ access to screening information and assist in
                          the coordination of screening strategies among DHS components. Moving
                          toward greater coordination of screening efforts, DHS recently established a
                          Screening Integration Working Group, including USCIS and other DHS
                          components, to plan a coordinated strategy for screening individuals. This fits
                          the intent of HSPD-11 to emplace “a coordinated and comprehensive
                          approach” to screening across immigration, law enforcement, intelligence, and
                          security components throughout the government. As DHS expands its efforts
                          to coordinate screening, USCIS screening should receive greater attention and
                          support. Aliens are eligible for some USCIS benefits, such as interim
                          employment authorization documents, even when security checks return
                          derogatory results. Furthermore, USCIS serves as the sole screener of some
                          immigrants who enter without inspection or visas, thereby avoiding screening
                          by CBP and the Department of State. Benefits for which unscreened
                          immigrants apply to USCIS include asylum, adjustment of status under INA §
                          245(i), temporary protected status, and potentially, proposed guest worker
                          programs. The USCIS benefits process is the government’s first opportunity
                          to screen these aliens against intelligence and lookout records.


16
   These fingerprint- and name-based queries of the National Crime Information Center review federal and state criminal
history records (charges and convictions) in the Interstate Identification Index. Currently, USCIS uses name-based
queries of the National Crime Information Center only when other screening indicates the applicant has a criminal
history. The FBI name check discussed elsewhere in this report, which is conducted through the National Name Check
Program, reviews records of previous and ongoing FBI investigations.
17
   Strengthened Visa Process Would Benefit from Improvements in Staffing and Information Sharing, GAO-05-859,
September 13, 2005.




                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 14
USCIS should continue to improve accuracy and timeliness of check
completion
                USCIS quality assurance and OIG sampling show that USCIS staff completes
                most required security checks. However, USCIS does not have
                comprehensive controls to prevent and identify mistakes when they occur.
                Further, USCIS has difficulty creating and retrieving historical records that
                show what checks were done when. Additionally, for a minority of cases,
                delayed and inconclusive security check results stall application processing
                for long periods. USCIS is strengthening its structure for processing security
                check hits and concluding cases that involve fraud or national security
                concerns with timely denials and law enforcement referrals.

     Management controls to ensure check completion need improvement
                Because of the manual effort and judgment involved in adjudicating
                immigration benefits, including security checks, the process is vulnerable to
                human error. Although USCIS staff performs most security checks in
                compliance with procedures, file sampling conducted during routine USCIS
                quality assurance and our inspection revealed security check errors for every
                form type reviewed. The errors vary in significance from incomplete file
                documentation to the approval of benefits without review of positive security
                check hits. They also vary in frequency, from less than one percent per
                sample, which meets USCIS’ designated acceptable quality level, to over
                95 percent for one form sampled. Though there are few reports of USCIS
                approving benefits for the mala fide, incomplete checks present a security
                vulnerability. Management controls to ensure check completion, including
                documentation and quality assurance reviews, are not comprehensive and
                should be improved.

                In its March 2005 Backlog Elimination Plan report, for the fourth quarter of
                FY 2004, USCIS indicated that application processing errors are controlled:

                       For cases reviewed during the fourth quarter of 2004, USCIS achieved
                       an overall processing accuracy rate of 99.6% and a critical processing
                       accuracy rate of 99.7%, exceeding the minimum acceptable accuracy
                       rates of 96% and 99% respectively. In all cases, corrective actions to
                       prevent future problems were implemented. It was also verified that in
                       applications where errors were detected, no applicant received a
                       benefit for which he/she was not eligible.



                        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                          Page 15
                            “Critical” errors, which may occur in no more than one percent of forms
                            reviewed in order to meet the acceptable quality level, include errors in
                            security checks. In fact, security check errors are the most common critical
                            error found during national quality assurance reviews. For the quarter
                            described, the 80 critical processing errors involved IBIS name checks (72
                            instances) and FBI fingerprint checks (three instances). Critical errors found
                            in the remainder of FY 2004 are in similar proportion. USCIS’ fourth quarter
                            FY 2004 quality assurance report added, “Although, the Service is
                            experiencing a trend in IBIS errors (a trend indicates that there is a system,
                            process or procedural problem that needs to be addressed), the errors are
                            within the Acceptable Quality Levels.” The trend continued in the first
                            quarter of FY 2005, and USCIS reported it was studying IBIS name checks
                            and anticipating improvements in procedures and training.18

                            However, these reports do not reflect all USCIS application processing. The
                            national quality assurance program discussed above involves only the N-400
                            Application for Naturalization, which was 8.7 percent of USCIS’ completed
                            applications in FY 2004. Because the N-400 is completed with different
                            automated systems and standard operating procedures (SOPs), its quality
                            results are not indicative of other forms’. In February 2005, USCIS added
                            national quality assurance reviews for the I-485 Application to Register
                            Permanent Residence or to Adjust Status, covering service center and district
                            office processing. Additional monthly quality assurance reviews are
                            conducted by Service Center Operations, which in FY 2004 reviewed the I-
                            485, I-130 Petition for Alien Relative, and I-539 Application to
                            Extend/Change Nonimmigrant Status. Service Center Operations suspended
                            review of the I-539 in June 2004 and began reviewing the I-130 in August
                            2004. In sum, each month up to a third of USCIS’ completed applications is
                            subject to random sampling for quality assurance.

                            Overall error rates are higher for the I-539, I-130, and I-485 than for the N-
                            400. Furthermore, errors in the I-130 and I-485 samples exceed the one
                            percent acceptable quality level for critical errors. Although USCIS does not
                            monitor the proportion of security check errors as a whole, we extrapolated
                            the following from monthly and quarterly reports:




18
     “Quality Management Summary, Consolidated Service-Wide Quality Results – 1st Quarter FY 2005,” April 14, 2005.


                                     A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                       Page 16
                                           Figure 1: USCIS Quality Assurance – Errors Found

                                                                         Proportion    Files with      Proportion of
                                      Months    Files Files with
               Form                                                        of files  security check files with security
                                     reviewed reviewed errors
                                                                         with errors    errors19       check errors
                              I-130
                                      8/04-9/04    2,707       177          6.5%              44              1.6%
         Petition for Alien Relative
                              I-485
 Application to Register Permanent 10/03-9/04      9,521       539          5.7%             190              2.0%
      Residence or to Adjust Status
                             N-400
                                     7/04-9/0420   10,246      272          2.7%              75              0.7%
     Application for Naturalization
                              I-539
     Application to Extend/Change 10/03-6/04       12,399      533          4.3%              70              0.6%
              Nonimmigrant Status

                           To extend our assessment of the risk of security check errors among USCIS
                           applications, we sampled eight of the remaining forms that do not receive
                           quality assurance reviews from USCIS. The eight forms represent an
                           additional 51.3 percent of USCIS’ FY 2004 workload and require different
                           combinations of IBIS name checks, FBI fingerprint checks, and FBI name
                           checks. We narrowed our sample to FY 2004 approvals in order to identify
                           whether applicants received benefits despite incomplete checks. For further
                           description of the sampling methodology, see Appendix A.

                           Every form type in our sample showed files with undocumented, untimely, or
                           missing security checks. For the N-400, USCIS guidelines consider all these
                           error types, including incomplete file documentation, to be critical errors.
                           Although our sample and the quality assurance samples are not strictly
                           comparable because of their different methodology, we note that the same
                           types of errors occurred in higher proportion in every form in our sample, than
                           in the forms receiving routine quality assurance reviews.




19
   Individual errors noted on the reports included missing, untimely, unresolved, or undocumented IBIS name checks,
FBI fingerprint checks, and FBI name checks. Untimely checks are ones processed after adjudication or more than 90
days prior for IBIS, or 15 months prior for FBI fingerprint checks. Unresolved checks are ones with hits confirmed on
the applicant but not explained in the required resolution memorandum. The I-539 and I-130 receive only IBIS name
checks.
20
   National quality assurance for the N-400 included all months of FY 2004, but until the fourth quarter, staff reported
results by review item rather than by application file.


                                     A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                       Page 17
                                        Figure 2: OIG Sampling Results – Total Errors Found

                                                                                                       Proportion of
                                                                                       Files with
                                                         FY 2004          Files                        reviewed files
                       Form                                                          security check
                                                        approvals       reviewed                       with security
                                                                                         errors
                                                                                                       check errors
                                                I-765
                                                        1,213,534          112             10               8.9%
           Application for Employment Authorization
                                                 I-90
                                                        1,016,146          100             15              15.0%
   Application to Replace Permanent Resident Card
                                                I-129
                                                         486,051           116             11               9.5%
                Petition for A Nonimmigrant Worker
                                                I-821
                                                         66,356            66               8              12.1%
         Application for Temporary Protected Status
                                                I-881
              NACARA–Suspension of Deportation or        31,106            69               3               4.3%
Application for Special Rule Cancellation of Removal
                                                I-730
                                                         24,492            47              30              63.8%
                    Refugee/Asylee Relative Petition
                                                I-589
                                                         14,331            69               2               2.9%
                               Application for Asylum
                                                I-192
               Application for Advance Permission to        84             52              50              96.2%
                              Enter as Nonimmigrant

                         In a follow-up to the sample, USCIS was able to demonstrate with automated
                         and other records that many of the checks that appeared to be missing were in
                         fact conducted but not documented in the file. Four form types showed errors
                         solely in documentation and did not appear to be missing security checks.
                         The following table reflects the common error types we observed:




                                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                     Page 18
                                        Figure 3: OIG Sampling Results –Type of Errors Found

                             Files with            Error type for missing, untimely, or unresolved security checks
         Total
                  Files with  missing,                     IBIS                         FBI                  FBI
      files with
                 improperly untimely, or                Name check               Fingerprint check      Name check
Form security
                 documented unresolved
        check
                   checks     security              Missing       Untimely       Missing       Untimely       Missing
        errors
                               checks
I-765     10          10          0                    0              0            NA             NA               NA
 I-90     15          15          0                    0              0            NA             NA               NA
I-129     11          10          1                    0              1            NA             NA               NA
I-821      8           4          4                    1              1             1              1               NA
I-881      3           3          0                    0              0             0              0                0
I-730     30          16        1421                   6              8            NA             NA               NA
I-589      2           2          0                    0              0             0              0                0
I-192    5022          0         50                    0              0             0              3               49

                           In particular, the I-192, I-730, and I-821 show substantial errors in processing
                           security checks. For the IBIS check to appear missing in both the paper file
                           and the automated case history, as seven I-730 and I-821 forms show,
                           indicates that an automated IBIS check resulted in a positive hit, but the
                           adjudicator did not review or resolve it before approving the case.23 The other
                           major error our sampling shows is a lapse in following the guidelines to
                           conduct FBI name checks for I-192 forms. Of 52 files, 49 (94.2 percent)
                           lacked FBI name checks. Staff at Vermont Service Center, which processed
                           most of the I-192s in our sample, questioned whether the FBI name check is
                           required for the I-192. But Chapter 42 of the Adjudicators Field Manual and
                           several headquarters documents require the FBI name check and fingerprint
                           check for the I-192.

                           Management controls to ensure check completion are inadequate

                           One explanation for the number of security check errors is that USCIS has not
                           implemented sufficient management controls to limit errors. The low


21
   USCIS claims that 13 of the missing or untimely I-730 IBIS checks may be solely documentation errors. The USCIS
paper and automated records show no current check, but original forms were forwarded to Department of State for visa
processing. For nine other original I-730 forms returned to USCIS, eight showed current IBIS checks and one did not.
22
   Because some files contained more than one error type, the number of files with errors is not a sum of errors found.
23
   All of the forms in our sample, which excluded forms processed manually at the district offices, receive automated
IBIS checks for the primary name that is data-entered. According to the processing rules, the Interim IBIS program
updates the CLAIMS 3 automated case history when the IBIS check results in no hit. If a check results in a hit,
CLAIMS 3 history will show no record of it; therefore, a history that is blank regarding IBIS checks implies an IBIS hit.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 19
                          proportion of errors now shown on N-400s is achieved by several means,24
                          including:

                                   •   Detailed, form-specific standard operating and quality review
                                       procedures;
                                   •   An automated processing system (CLAIMS 4) that prohibits
                                       adjudicators from approving cases until certain security checks are
                                       complete;
                                   •   Monthly quality assurance reviews, including correction of errors
                                       discovered and analysis of error trends; and
                                   •   Recurrent training for staff on processing standards and changes.

                          But the management controls for other forms vary, and in some cases, they are
                          far less comprehensive. We identified several types of controls that USCIS
                          could use more fully to limit errors. We acknowledge that varying levels of
                          control can reflect management judgment about the risk involved in granting a
                          specific benefit to a mala fide or unqualified alien and the costs of
                          implementing stricter controls. Not all of the following controls are high-cost,
                          however.

                          First, USCIS needs to improve how it documents and disseminates the
                          policies and procedures for security checks. Communication of procedures is
                          a longstanding issue for immigration services; in 1997 and 2001, GAO
                          reported, “[P]oor communication was a problem, especially between
                          headquarters and field units. For example, field and policy manuals were out
                          of date and there was not one place that program staff could go for
                          direction.”25

                          No SOP summarizes the current security check requirements for all forms.
                          Revisions to the outdated Chapter 16 of the Adjudicators Field Manual,
                          “Fingerprinting and Other Agency Background Checks,” have been in draft
                          for months. USCIS plans but has not begun to update the November 2002
                          SOP for IBIS name checks. In addition, although district office staff has had
                          difficulty submitting and retrieving FBI name checks, they have no manual
                          clarifying those procedures. In some cases, form-specific national SOPs
                          consolidate security check guidance. Eight of the 12 forms discussed here
24
   In tandem with a critical report in 2000 from the DOJ OIG, USCIS (then part of the Immigration and Naturalization
Service) reengineered the processing of the N-400 to limit errors. (An Investigation of the Immigration and
Naturalization Service’s Citizenship USA Initiative, July 31, 2000).
25
   Immigration and Naturalization Service: Overview of Recurring Management Challenges, GAO-02-168T, p. 5,
October 17, 2001; INS Management: Follow-up on Selected Problems, GAO/GGD-97-132, July 22, 1997.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 20
have SOPs. The four that do not–the I-129, I-192, I-730, and I-821–were the
ones that showed missing or untimely security checks. Most other forms do
not have specific national SOPs either.

Additional security check requirements are reflected in a patchwork of
memoranda and manuals. For example, USCIS issued at least seven
memoranda altering security check procedures in March and April 2005.
Staff at seven of 11 processing sites we visited expressed frustration with the
quantity or insufficient clarity of changes to security check procedures. At
three sites, staff maintains local guidelines to consolidate and clarify security
check requirements.

Second, for some but not most forms, USCIS implemented automated controls
on check completion. Naturalization forms processed in CLAIMS 4 and
asylum forms processed in the Refugee Asylum and Parole System (RAPS)
have automated, rule-based support that requires security checks to be
complete before the adjudicator can approve the case. The Department of
State has had similar controls in place for visa approvals since 1996. When
checks result in positive hits, adjudicators must override them, which prevents
overlooking hits.

Our sample included two forms processed in RAPS (the I-589 and I-881) and
all security checks processed through RAPS were complete. However,
USCIS processes the majority of forms in CLAIMS 3, which does not have
these automated controls. All the forms in our sample with missing or
untimely checks were processed in CLAIMS 3. Furthermore, some forms
filed at the district offices are not supported by any of these national
automated systems. USCIS staff reported that adding automated controls for
forms processed in CLAIMS 3 or manually will be difficult until USCIS has a
new automated case management system, planned since 2001 but not
expected until 2007. However, even before fielding a new case management
system, USCIS may better leverage automated controls on check completion.
For example, automated controls ensured that IBIS checks were complete for
the I-90s in our sample that were processed in CLAIMS 3 under Systems
Qualified Adjudication rules.

Third, USCIS lacks a complete record of checks performed. USCIS needs the
records to conduct quality assurance and supervisory reviews and to enable
staff to refer to previous, current checks rather than duplicate them. When
USCIS began IBIS name checks, guidelines required paper documentation of
all checks: “The record will be updated to reflect the results of every IBIS


        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 21
                            query … When batch checks are conducted, confirmation that the check was
                            performed must be placed in the file.”26 The IBIS SOP supports full paper
                            documentation. However, senior officials disputed whether all security
                            checks must be documented in paper files, when automated systems also
                            contain records of checks.

                            In our estimation, neither method currently provides adequate control because
                            both are incomplete; and paper records in particular are vulnerable to error.
                            Almost half of the security check errors discovered during our sampling (60 of
                            129, or 46.5 percent) involved paper documentation lapses. Some
                            adjudicators continue to document IBIS checks by stamping applications.
                            While quick, stamps in our sample were sometimes accompanied by illegible
                            dates, results, and conductor initials, and stamps do not indicate which names
                            were checked. The more detailed Record of IBIS Query, which the IBIS SOP
                            requires, does record which names staff check. However, among over 300
                            forms in our sample where applicants listed more than one name, staff did not
                            complete a Record of IBIS Query for 125. The paper records do not indicate
                            whether staff performed IBIS checks on the aliases as required.

                            Automated records do not fully capture alias information, either.
                            Furthermore, they do not reflect other important processing steps that are still
                            performed manually: individual IBIS queries, adjudicator review of hits, and
                            hit resolution. As a result, USCIS’ security check records are fragmentary.
                            Incomplete records hinder staff in monitoring check completion and result in
                            processing inefficiencies. Several managers and staff told us adjudicators
                            routinely conduct new checks rather than rely on the file record. Additionally,
                            incomplete automated records compel staff to conduct quality assurance
                            manually.27

                            Fourth, USCIS should reexamine its controls for reviewing check completion.
                            USCIS has set national standards for formal quality assurance and supervisory
                            review, but these reviews cover a small proportion of completed applications.
                            As mentioned, national and Service Center Operations quality assurance
                            samples up to a third of USCIS’ completed applications each month. National
                            supervisory review of security checks occurs through the resolution
                            memorandum for all IBIS name checks with confirmed hits, which are about
                            two percent of IBIS checks. Additionally, supervisors in asylum offices use a
                            checklist to review all security checks.

26
     “Interagency Border Inspection System Records Check,” July 2, 2002.
27
     USCIS does not have a process for auditing IBIS checks by reviewing the source records retained by CBP.


                                      A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                        Page 22
                          Beyond these reviews, processing offices provide a variety of supervisory and
                          quality assurance checks. Four processing sites we visited, two of which were
                          asylum offices, provided 100 percent supervisory review of security checks.
                          Other offices review a percentage of applications completed, approved, or
                          denied, sometimes based on form type or adjudicator tenure. Our concerns
                          with this approach are twofold: 1) providing supervisory review based on
                          form type can result in certain forms receiving no review; and 2) reviewing
                          application denials is of lesser benefit to security because any mala fide
                          benefit recipients are among the approvals. Quality assurance also varied
                          among offices. Two processing sites we visited provided routine quality
                          assurance for all forms; two, for all IBIS checks; and two were considering
                          adding quality assurance for all IBIS checks. Other quality assurance staff
                          with whom we met supplemented the national program with ad hoc reviews.

                          A number of forms are not subject to quality assurance. This is a missed
                          opportunity for USCIS: staff reported that quality assurance reviews have
                          helped to extinguish incorrect processing behaviors and provided a retraining
                          opportunity. USCIS does not require refresher training on how to conduct
                          security checks or procedural updates. An additional concern regarding
                          quality assurance is that USCIS designated an acceptable quality level (for
                          example, the one percent critical error rate) for only a few forms. USCIS
                          should establish measures for the remaining forms or apply this one. It will be
                          important for USCIS to continue to review security check performance and
                          provide management with information to adjust management controls to
                          ensure performance goals are met.

                          Incomplete security checks and weaknesses in USCIS management controls
                          must be considered in context. Many USCIS applicants are bona fide. As
                          GAO wrote in 1995, “While INS recognizes that even a relatively small
                          number of aliens should not inappropriately receive benefits, it did not want to
                          give the false impression that a criminal or terrorist receives a benefit every
                          time a fingerprint check is not properly conducted.”28 We agree that this
                          holds true for any type of USCIS security check. For the files in our sample
                          with missing or untimely IBIS checks, USCIS ran new queries and reported
                          no derogatory information on all people checked. Three offices we visited
                          reported similar experiences with correcting erroneous IBIS and FBI name
                          checks. But whether USCIS’ incomplete security checks involve bona fide or

28
  INS Fingerprinting of Aliens: Efforts to Ensure Authenticity of Aliens’ Fingerprints, GAO/GGD 95-40, p. 4, December
22, 1994.


                                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                     Page 23
                          mala fide applicants is a matter of chance. In 2002, incomplete screening led
                          a USCIS adjudicator to approve naturalization for a member of a terrorist
                          group.29 Though there are few reports of USCIS approving benefits for the
                          mala fide, incomplete checks present a security vulnerability that USCIS
                          should address through targeted improvements to management controls on
                          check completion.

     USCIS is implementing solutions to complete stalled cases
                          USCIS has an established structure for handling cases with security check hits
                          and addressing national security, public safety, and fraud concerns. However,
                          for a fraction of cases, slow, inconclusive, or legally inapplicable security
                          check results can cause application processing to stall for months or even
                          years. These delays can interfere with USCIS’ concluding national security
                          and public safety hits with timely denials or referrals to law enforcement. In
                          addition, stalled cases decrease operational efficiency by reducing
                          productivity and contributing to hundreds of lawsuits against USCIS. USCIS
                          is pursuing several solutions to mitigate these effects and close stalled cases.

                          Staff described four primary ways that security checks could stall processing
                          on a case:

                               •   Pending FBI name checks. Unlike other USCIS checks that return
                                   results within a few days at most, the FBI name check takes more than
                                   a month to complete for six percent of submissions. For one percent,
                                   the FBI takes more than six months to compile the hit information and
                                   verify that the initial hit matches the identity of the applicant. In
                                   December 2002, USCIS (then INS) resubmitted 2.4 million applicant
                                   names for expanded checks,30 almost double the number USCIS
                                   typically submits in a year’s time. As of February 2005, USCIS
                                   reported 171,428 FBI name checks pending, including approximately
                                   8,500 remaining from the December 2002 rerun. USCIS may pay the
                                   FBI double to “expedite” up to a few hundred FBI name checks per
                                   month. USCIS restricts these requests to certain cases, such as when
                                   the alien is about to become ineligible due to age, the applicant files
                                   writ of mandamus lawsuits to compel USCIS to complete adjudication,


29
   Review of the Circumstances Surrounding the Naturalization of an Alien Known to be an Associate of a Terrorist
Organization, INS Office of Internal Audit, December 13, 2002.
30
   Ibid. In response to an incident that involved processing benefits for a member of a terrorist group, INS added
searches of the FBI’s reference file to searches of the main investigation file.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 24
                                   or other humanitarian factors. The “expedite” requests are insufficient
                                   to clear the backlog of FBI name checks.

                               •   Open cases referred to ICE for investigation. When USCIS refers
                                   an open case to ICE for investigation, staff said long delays often
                                   occur before they receive clearance to complete the adjudication or
                                   another definitive response. In 2004, FDNS reviewed the IBIS
                                   national security/terrorism-related hit referral process and found that
                                   ICE was capable of resolving only about a quarter of the USCIS
                                   referrals in a timely manner. We observed rows of files USCIS staff
                                   shelved, pending a response from ICE. 8 C.F.R. § 103.2(b)(18) allows
                                   USCIS to place cases in formal abeyance and withhold adjudication
                                   when there is an ongoing investigation relating to the petitioner’s
                                   eligibility and disclosure to the petitioner would jeopardize the
                                   investigation.

                               •   Inconclusive results from checks and referrals. Senior officials and
                                   staff said that security checks and supplementary information from
                                   FBI, ICE, or other record owners can sometimes be vague,
                                   inconclusive, or difficult to relate to the case adjudication. At one
                                   district office, staff said they shelved cases with complete, positive
                                   FBI name check responses for months, pending guidance on how to
                                   adjudicate them.

                               •   Legally inapplicable security check results. In a 2003 audit, the
                                   DOJ OIG reported that INS could not deny the petition of an alien
                                   otherwise eligible for temporary worker benefits based on an IBIS
                                   hit.31 Unlike the adjudicative standards in the Immigration and
                                   Nationality Act for most benefits, the standards for adjudicating
                                   employment- and family-based petitions require USCIS to evaluate
                                   only the authenticity of the employment offer or family relationship,
                                   without regard to whether the person evokes security concerns. These
                                   employment- and family-based petitions serve simply to document the
                                   relationship, but they enable approved aliens to apply for other
                                   benefits such as legal permanent residence and visas from the
                                   Department of State. Nevertheless, USCIS would prefer not to
                                   approve any petition when security concerns have been identified.
                                   USCIS sometimes withholds adjudication through an informal


31
     Immigration and Naturalization Service’s Premium Processing Program, DOJ OIG Report No. 03-14, February 2003.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 25
                                       abeyance; 8 C.F.R. § 103.2(b)(18) does not apply unless the
                                       investigation relates to the pending application.

                              Previous options that USCIS had for completing these four types of cases in a
                              timely manner were insufficient. Given their partially automated systems,
                              staffing level, and number of customers other than USCIS, the FBI’s National
                              Name Check Program officials said they could not complete USCIS’ routine
                              cases more quickly. The American Immigration Lawyers Association said
                              that lawyers have begun to recognize that filing mandamus lawsuits helps to
                              expedite FBI name check results. The USCIS Office of Chief Counsel
                              estimated there were 1,000 cases filed in the federal courts last year naming
                              USCIS as a party, of which 80 to 90 percent relate to security checks.32 This
                              “solution” may assist applicants, but the volume of cases consumes USCIS
                              time and resources that could be used elsewhere. Regardless, there are not
                              enough “expedite” slots for all pending FBI name checks.

                              For the relationship-based petitions, USCIS options include withholding
                              adjudication through an ongoing, informal abeyance; requesting that
                              applicants withdraw the petitions; or approving the petitions in the expectation
                              that applicants will be denied at another point in the process. However, delays
                              from informal abeyance are also vulnerable to legal challenge. Furthermore,
                              applicants can refuse to withdraw petitions, and the transfer of derogatory
                              information to support later denial is not fail-safe. For some cases, USCIS
                              relies on the Department of State to deny the alien a visa. USCIS forwards
                              petitions stamped “admissibility concerns identified” to visa processing
                              centers. Because information-sharing protocols prevent USCIS from
                              revealing derogatory information it received from third parties, visa staff must
                              attempt to recreate USCIS’ hit. A Department of State manager said that they
                              were not always able to do so.

                              Long-delayed cases increase USCIS’ workload other ways, as well. IBIS and
                              FBI fingerprint checks can expire, requiring new checks and repeated
                              fingerprinting. In addition, adjudicators run queries on a regular basis for
                              each case with a pending FBI name check, to learn whether FBI name checks
                              cleared.




32
     This figure is exclusive of litigation relating to the commercial and administrative law division.


                                        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                          Page 26
                         Solutions USCIS is pursuing

                         USCIS has begun to address cases delayed with ICE and the FBI by assigning
                         USCIS staff to work off the backlogs. In order to keep ICE’s backlog from
                         growing, FDNS ceased referring IBIS national security hits to ICE in
                         November 2004, instead resolving them in house. In May 2005, FDNS
                         assumed responsibility for the backlog of approximately 600 national security
                         hit cases that had remained with ICE. In March 2005, USCIS detailed five
                         personnel to the FBI National Name Check Program for up to a year to assist
                         with the pending FBI name checks.

                         Additionally, USCIS has been pursuing regulatory and statutory options to
                         expand authority to withhold adjudication and to deny benefits due to national
                         security concerns. USCIS described the suggested statutory change as
                         providing the legal basis “to deny any benefit to aliens described in any of the
                         national security related provisions of inadmissibility or deportability in the
                         Immigration and Nationality Act (INA), who are the subject of a pending
                         investigation or case that is material to eligibility for a benefit, or for whom
                         law enforcement checks have not been conducted and resolved.”33 However,
                         USCIS has been pursuing similar changes for several years, and staff has no
                         indication that their approval is imminent.

                         Meanwhile, USCIS is developing two specialist staff units to help conclude
                         cases with complex adjudication and security check issues. In March 2005,
                         USCIS created a unit called FOCUS within the Office of Field Operations to
                         assist in the adjudication of selected cases with identified national security or
                         public safety concerns. Both field offices and FDNS may refer cases to
                         FOCUS for adjudication guidance. FOCUS’s initial workload is 100 cases.
                         USCIS has also proposed developing a Background Check Analysis Unit
                         within FDNS to resolve the more complex and sensitive hits, receive and
                         review all national security notifications to observe trends, provide direction
                         and oversight to the field, and coordinate issues with other USCIS
                         components including the Office of Chief Counsel. FDNS estimates the unit
                         will resolve at least 500 complex and sensitive security checks per year. The
                         reprogramming request to fund seven personnel to staff the unit was in the
                         preliminary approval process as of April 2005.


33
  USCIS draft amendment adding a new Section 362 of the Immigration and Nationality Act, “Denial of Immigration
Benefits to Terrorists and Criminals.”


                                  A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                    Page 27
USCIS can administer security checks more efficiently
                         USCIS can strengthen the efficiency of its security check program. First,
                         USCIS automation does not provide many of the efficiencies that existing IT
                         solutions offer. USCIS needs improved automation to reduce duplicative,
                         paper-based security check processes. USCIS has two systems in
                         development that could streamline how USCIS runs, documents, and monitors
                         checks. Second, more than a year after the creation of FDNS, many USCIS
                         parties are still responsible for aspects of the security check program. While
                         there are justifications for the diffused responsibility, clarifying accountability
                         could better enable USCIS to address program weaknesses including the lack
                         of an integrated, risk-based plan for which checks to conduct, lack of
                         comprehensive program management data, and delays in disseminating
                         uniform policies and standards.

     Automated systems provide inadequate support for processing security checks
                         USCIS does not have a centralized, automated case management system or
                         security checks system. A large portion of the security check process is
                         completed and documented by hand or with homegrown systems. Compared
                         to the Department of State’s, USCIS’ systems have limited ability to reduce
                         duplication and processing steps, control approvals, document checks for
                         audit purposes, and create adequate program management information. As a
                         result, the process is labor-intensive, vulnerable to human error, and
                         inefficient.

                         Several previous OIG and GAO reports have noted that USCIS does not have
                         information systems adequate to support efficient processing of benefits and
                         security checks.34 Cases are not managed or tracked centrally: staff processes
                         applications in CLAIMS 3, CLAIMS 4, RAPS, the Integrated Case
                         Management System, the Marriage Fraud Amendment System, homegrown
                         systems such as the Buffalo Examination Tracking System, and in some cases,
                         no automated system. Furthermore, even cases that have automated records
                         have paper records as well, which staff must create, track, update, and retrieve
                         manually. Although staff initiates security checks electronically, they remain

34
  Audit Report: Fingerprint and Biographical Check Services Provided by the Federal Bureau of Investigation to the
Immigration and Naturalization Service, DOJ OIG, Report No. 99-13, March 1999; Immigration Benefits: Several
Factors Impede Timeliness of Application Processing, GAO-01-488, May 4, 2001; Immigration Benefit Fraud: Focused
Approach is Needed to Address Problems, GAO-02-66, January 31, 2002.


                                  A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                    Page 28
largely a paper process. Staff and contractors review paper applications to
find and screen applicants’ aliases. Checks are documented and reviewed
manually with IBIS stamps, handwritten Records of IBIS Query, Interim IBIS
printouts, printed FBI Rap sheets, printed FBI name check results, and
handwritten hit resolution documents.

The existing paper and automated systems have limited ability to:

   •   Prevent duplication of work. USCIS’ automated systems do not store
       complete security check information in order to permit staff to review
       it electronically regardless of location. While national case
       management systems such as CLAIMS 3 and RAPS store security
       check dates and results, more detailed information such as hit content
       and resolution is available only in paper files and, in some cases, local
       systems. Therefore, when staff does not have the paper record to
       review–for example, an immigration information officer assisting a
       walk-in applicant–staff re-runs and resolves IBIS checks even if they
       are current. USCIS also does not have an automated system to store
       fingerprints. When fingerprints age past 15 months, which USCIS’
       backlog and slow FBI name checks can cause, applicants must return
       to application support centers to submit their fingerprints again.

   •   Automatically update screening results. The screening databases
       USCIS uses do not provide “wrap-back” updates that push updated
       records to USCIS when information on applicants whom USCIS has
       already screened changes. Instead, USCIS staff re-runs all IBIS name
       checks more than 90 days old before adjudication to see if any of the
       records have changed. Although USCIS studied and selected the 90-
       day expiration period to reduce the possibility of missing significant
       record updates, the potential exists. Like the IBIS check, USCIS
       repeats the FBI fingerprint check for updates on a 15-month expiration
       schedule. USCIS has not set an expiration period for the FBI name
       check, but the FBI considers a name check to be current for 120 days.
       However, updating FBI name checks also consumes labor as staff
       checks repeatedly whether pending name checks have finalized.
       Asylum Branch’s IDENT checks are refreshed when applicants return
       to the asylum offices. Asylum staff has begun to receive some wrap-
       back information through US-VISIT, though headquarters staff must
       manually redirect it to local offices.




        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 29
                              •   Assist in verifying applicants’ identity with biometric identifiers.
                                  Although USCIS collects fingerprints and photographs from many of
                                  its applicants, in most cases these are used for card production and
                                  criminal history record checks, not for automated, biometric
                                  verification of the applicant’s identity. Visual inspection of biometric
                                  data to establish the applicant’s identity is slower and less reliable than
                                  automated checks. Only the fingerprints that are stored in IDENT-
                                  Asylum are used for automated identity verification. However, this
                                  biometric check has limitations as well. US-VISIT does not
                                  crosscheck IDENT-Asylum files with its visa and entry-exit records,
                                  and asylum staff conducts manual, name-based searches of this
                                  information until US-VISIT improves cross-check capability.

                              •   Consolidate checks. The May 2003 Security Matrix Project
                                  Recommendations Report advised USCIS to develop “multiple system
                                  search capacity,” the ability to enter and review applicant information
                                  in a single system for checks conducted in several others. USCIS staff
                                  must log in to separate systems to initiate and review most IBIS, FBI,
                                  IDENT, and administrative checks. A March 2005 study indicated
                                  that derogatory information provided by FBI name checks was not
                                  consistently available via IBIS name checks, even though the IBIS
                                  check contains FBI information from the National Crime Information
                                  Center and Terrorist Screening Database. Therefore, for many
                                  applications, USCIS continues to run two security name checks,
                                  biometric checks, and administrative checks.

                              •   Generate national program management information. The systems
                                  USCIS uses do not track the resources used to process security checks,
                                  and none except RAPS tracks the check results. For example, national
                                  systems do not supply records of the number of IBIS checks
                                  conducted, the amount of time staff spends resolving hits, the number
                                  and types of IBIS hits received, and the adjudication results of cases
                                  with IBIS hits. USCIS has developed estimates of some figures based
                                  on data provided by individual service centers, which have more
                                  extensive automated support than district offices. Further information
                                  comes from ad hoc studies; other manually compiled reports; and the
                                  Performance Analysis System, the reliability of which DOJ OIG
                                  criticized.35

35
 Accuracy of Adjudications and Naturalization Data in the Performance Analysis System of the U.S. Immigration and
Naturalization Service, DOJ OIG Report No. 99-03, February 1999. In FY 2004, independent auditors reported internal


                                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                     Page 30
                        Improved automated systems that include these features would assist USCIS
                        in eliminating duplication of work, increasing productivity, reducing
                        opportunities for human error, and maintaining management controls. The
                        Department of State developed systems that include some of these features.
                        For example, an entry in the Department of State’s Non-Immigrant Visa
                        Processing System permits staff to initiate and review security check
                        information in IDENT, the Consular Consolidated Database, Security
                        Advisory Opinions, and the Consular Lookout and Support System. Consular
                        officers can more quickly review the consolidated information, including
                        historical records, without logging in and out to search different systems. The
                        Non-Immigrant Visa Processing System also automatically checks applicant
                        aliases, runs fingerprint and facial recognition biometric checks, and compares
                        biographic data during checks to flag potential identity mismatches.
                        Furthermore, the system incorporates management controls including rules
                        that prevent approvals without security checks, complete historical records of
                        security check information reviewed, and several means of reviewing case
                        decisions.

                        Without these features, USCIS’ security check processes are more labor
                        intensive, vulnerable to human error, and difficult to monitor. For example,
                        we estimated that refreshing IBIS checks to ensure they are current within 90
                        days at adjudication resulted in a minimum of 4.3 million additional IBIS
                        checks in FY 2004. Conducting checks without automated controls on
                        completion and renewal permits staff errors like those found during USCIS
                        quality assurance and OIG sampling. And the lack of centralized, automated
                        records for analysis causes USCIS to rely on less-definitive estimates and
                        anecdotes for decisions. For example, USCIS has no record of how many
                        relationship-based petitions staff was obliged to approve despite derogatory
                        security check results. There is no estimate of the scale of the problem to help
                        indicate whether the statutory change being pursued is the only viable
                        solution.

                        USCIS has been planning to improve automated support for the security check
                        process for several years. In December 2001, USCIS (then INS) issued an IT
                        modernization plan36 with goals to integrate the disparate case management
                        systems; transition to a paperless system; and incorporate automated,

control weaknesses in USCIS’ Performance Analysis System. (U.S. Department of Homeland Security Performance and
Accountability Report, Excerpts of Financial Information Part II, Seven Months Ended September 30, 2003, KPMG
LLP.)
36
   Immigration Services IT Strategic Plan, 2002-2012, December 2001.


                                 A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                   Page 31
                          biometric identification. USCIS does not expect to field a consolidated,
                          automated case management system until 2007. However, other advances
                          have been made. In 2004 and 2005, the National Benefits Center and lockbox
                          application receipt operations began to enter data and pre-process applications
                          for all district offices, partially automating this work, which includes initial
                          name checks and fingerprint scheduling.

                          Furthermore, USCIS conceived two new software systems to support the
                          background check process. The Background Check System (BCS), which
                          USCIS began testing in spring 2005, will centralize check records, helping to
                          reduce duplication of checks and supporting check reviews. Also in spring
                          2005, USCIS contracted to begin building the BSS, which will retain
                          fingerprints, photographs, and signatures for screening. Once fielded, these
                          systems should do much to reduce duplication and manual effort, and to
                          improve USCIS’ ability to monitor processing. USCIS’ May 2005 strategic
                          plan discusses integrating these systems with its case management systems
                          and pursuing wrap-back updates from the agencies that supply check
                          information.

                          USCIS has suffered delays in implementing its plans to modernize and
                          automate its background check systems. Staff said that the BCS software
                          were in development when Immigration Services split from the other offices
                          of INS in March 2003. Under the DHS realignment, Immigration Services
                          lost direct IT support, instead receiving it from ICE under a shared service
                          agreement. USCIS recently reformed its IT infrastructure, integrating
                          authority under the Chief Information Officer (CIO) in May 2005, and that
                          office assisted in advancing BCS and BSS development.37 USCIS succeeded
                          in obtaining access to a test environment for testing BCS in spring 2005, and a
                          contract to develop BSS followed. Continued progress will be necessary to
                          eliminate obstacles to processing efficiency.

     USCIS should continue reorganization of security check management
                          In previous sections, we discussed several improvements USCIS should pursue,
                          including a risk-based plan to enhance the scope of security checks, more
                          comprehensive program management information, and stronger management
                          controls. FDNS has begun to provide some of this support for security checks.
                          However, it shares responsibility for these areas with adjudicative and policy

37
 For further discussion of USCIS IT modernization and infrastructure, see U.S. Citizenship and Immigration Services Is
Not Effectively Managing Information Technology to Meet Mission Requirements, DHS OIG (forthcoming).


                                   A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                     Page 32
                            offices including Service Center Operations, Field Operations, and the Office of
                            Quality Assurance and Production Management. It also shares responsibility
                            with the Asylum Branch and the CIO, which are outside the domestic
                            operations organization where FDNS sits. Coordinating some of these parties
                            has delayed at least one significant SOP change. In order to ensure aggressive
                            progress in security check management, USCIS needs to establish
                            accountability and timelines for developing security check plans, policies, and
                            program information.

                            Announcing the official formation of FDNS in May 2004, the USCIS director
                            defined its mission to:

                                 • Oversee and enhance policies and procedures pertaining to
                                   the performance of law enforcement (background) checks on
                                   applicants and petitioners
                                 • Identify and evaluate vulnerabilities in the various policies,
                                   practices, and procedures which threaten the integrity of the
                                   legal immigration process
                                 • Recommend solutions and internal controls to address these
                                   vulnerabilities.38

                            Since that time, FDNS reengineered procedures for resolving security check
                            hits involving national security and developed new policies to support law
                            enforcement and intelligence agencies interacting with benefit applicants. In
                            February 2005, FDNS initiated its Benefits Fraud Assessment to statistically
                            assess for the first time the percentage and type of fraud in six higher risk
                            applications. The information from this study should enable FDNS to evaluate
                            vulnerabilities, as will the information developed with FDNS’s new automated
                            Fraud Tracking System and planned Background Check Analysis Unit.

                            Several responsibilities related to policy, procedures, and controls for security
                            checks are assigned outside FDNS. FDNS officials told us that the
                            responsibility for planning the types of security checks to conduct belongs with
                            the adjudicative offices such as the Asylum Branch, Service Center Operations,
                            and Field Operations. Supporting this statement, the Asylum Branch and
                            Service Center Operations initiated recent changes regarding how USCIS
                            screens applicant aliases.



38
     “Introducing the Office of Fraud Detection and National Security (FDNS)”, May 2004.


                                     A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                       Page 33
                         For writing the policy defining user access to IBIS, or which type of records
                         users at different security clearance levels can view, the Office of the CIO has
                         responsibility. For the management control of quality assurance procedures and
                         testing, the Office of Quality Assurance and Production Management, Service
                         Center Operations, and selected field offices have been driving changes. Much
                         of USCIS’ quality assurance assesses performance other than security checks,
                         but field offices are discussing plans to develop a quality assurance test solely
                         for security checks. Offices other than FDNS also manage another control,
                         security checks training. We observed several opportunities for making
                         training more complete and uniform. Most field offices we visited lack
                         recurrent training on changing security check policies and procedures, and staff
                         requested more security checks training, such as on IBIS features.

                         In sum, security check administration is still somewhat decentralized within
                         USCIS. While this is management’s prerogative, we note that USCIS formed
                         FDNS partially in response to a 2003 study that recommended USCIS
                         centralize management of security checks. The centralization was intended to
                         improve the efficiency and effectiveness of the security check process and
                         eliminate “variability of background check requirements … inconsistent
                         administration of background check information … [and] poor use of
                         resources.”39

                         Although USCIS continues to refine its security check process, we did not
                         observe efforts to unify the process under a plan with performance goals and
                         measures, clearly defined accountability, and timelines for implementing
                         changes. However, these steps are necessary to balance available resources,
                         decentralized office responsibilities, and desired program outcomes. The
                         Office of Management and Budget directs: “[R]esults-oriented managers must
                         ask themselves if the programs they administer are achieving the desired result
                         at an acceptable cost. If the answer is ‘no’ or ‘we don’t know,’ they must do
                         something about it, such as clearly define the desired outcomes, determine the
                         causes of unsatisfactory performance, construct plans to remedy any problems,
                         develop aggressive timeframes for taking action, and ensure that actions are
                         implemented.”40

                         Without clear plans, accountability, and timelines, USCIS will have difficulty
                         coordinating its offices to implement needed improvements on an aggressive

39
   BCIS Background Checks: Identifying the Need for a centralized Background Check Unit (BCU), Booz Allen
Hamilton, May 14, 2003.
40
   The Federal Government is Results-Oriented: A Report to Federal Employees, Office of Management and Budget, p.
1, August 2004.


                                  A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                    Page 34
            schedule. For example, when our review began in October 2004, FDNS
            planned to revise the outdated 2002 SOP for IBIS. By the conclusion of our
            fieldwork in March 2005, FDNS and Service Center Operations had begun
            discussions on IBIS roles and responsibilities and potential SOP changes, to be
            followed by discussions with Field Operations and other IBIS users on an
            indefinite timeline. It is unclear when the revision will be complete, and as we
            noted on page 21, field offices have begun compiling local guidelines in the
            absence of a current IBIS SOP. The risk of this alternative is that local offices
            will develop guidelines that do not fully comply with the official SOP, which
            was the case at one office we visited.


Recommendations
            We recommend that U.S. Citizenship and Immigration Services:

            Recommendation 1: Expand the use of biometric identification in security
            checks, as consistent with risk assessment.

            Recommendation 2: Establish a comprehensive, risk-based plan for the
            selection and completion of security checks.

            Recommendation 3: Set measurable objectives for the conduct and
            completion of all security checks and reorganize management controls to
            ensure objectives are met.

            Recommendation 4: Implement the Background Check Analysis Unit in the
            Office of Fraud Detection and National Security.

            Recommendation 5: Implement an automated system that stores applicants’
            biometric information and supports its use in security checks.

            Recommendation 6: Implement an automated system that supports running,
            documenting, reviewing, and monitoring security checks.

            Recommendation 7: Define accountability and timelines for implementing
            changes to the security check process that include the development of the plan
            for completion of security checks, check completion objectives, and
            reorganized management controls.




                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                      Page 35
Management Comments and OIG Evaluation

             We evaluated USCIS’ written comments and made changes to the report
             where deemed appropriate. Below is a summary of USCIS’ written responses
             to our recommendations and our analysis of the response. A copy of USCIS’
             response in its entirety can be found in Appendix B.

             USCIS agreed that its security check process requires improvements including
             consolidated management, clarified procedures, and increased monitoring.
             USCIS added that better automated tools, which are in development, are
             fundamental to process improvements. In addition, USCIS stated that it will
             continue to pursue access to automatic updates for changing security check
             information, i.e. wrap-back. We agree the wrap-back feature could play a vital
             role in improving both the security and efficiency of USCIS checks.

             Recommendation 1: Expand the use of biometric identification in security
             checks, as consistent with risk assessment.

             USCIS Response: USCIS acknowledged that only applications related to
             asylum currently use biometrics to validate identity. USCIS intends to work
             with DHS to establish a biometric and biographic data collection standard that
             will be common to USCIS, the Department of State, CBP, and ICE.
             Separately, USCIS is in the preliminary stages of plans to collect biometrics
             from customers when they first apply for a benefit and to use the biometrics to
             verify identity during subsequent processes. USCIS anticipates using this
             model for the Temporary Worker Program.

             OIG Evaluation: We concur with USCIS’ action and regard the
             recommendation as resolved and open. In its action plan, USCIS should
             explain which benefits will be included as biometric collection is expanded
             and note the results of its preliminary planning. Coordination with DHS to
             ensure the compatibility and interconnectivity of USCIS, CBP, ICE, and
             Department of State biometric identity systems is a critical part of managing
             the entry and exit of immigrants and non-immigrants to the United States.

             Recommendation 2: Establish a comprehensive, risk-based plan for the
             selection and completion of security checks.

             USCIS Response: FDNS will prepare a plan to outline how, when, and for
             what benefits expansion of biometric checks should occur. They will base this


                     A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                       Page 36
analysis on risk assessments and assign responsibilities, timelines, and
milestones for the implementation.

OIG Evaluation: We concur with USCIS’ action and regard the
recommendation as resolved and open. In its action plan, USCIS should
include documentation of the plan’s progress.

Recommendation 3: Set measurable objectives for the conduct and
completion of all security checks and reorganize management controls to
ensure objectives are met.

USCIS Response: FDNS, in coordination with the Production Management
Division, will work to establish acceptable quality levels. These two offices
will use information in the Background Check System to measure compliance
with the quality levels. USCIS commented that management controls
embedded in automated systems are the most effective for ensuring security
check completion. Future USCIS systems will include these controls. In
addition, FDNS will review and consolidate all USCIS guidance on security
checks. USCIS will also explore ways to improve program management
information by tracking adjudication decisions in relation to security check
results.

OIG Evaluation: USCIS’ proposed actions, including establishing acceptable
quality levels for all forms and improving management controls such as policy
documentation, are responsive to the recommendation. The recommendation
is resolved and open.

Recommendation 4: Implement the Background Check Analysis Unit in the
Office of Fraud Detection and National Security.

USCIS Response: USCIS noted that FDNS has resolved all national-security-
related IBIS hits since March 2005. FDNS’s Background Check Analysis Unit
reviews, tracks, analyzes, and resolves all name-vetted hits related to rational
security.

OIG Evaluation: This recommendation is resolved and open. In its action
plan, USCIS should discuss the organizational and staffing changes made in
FDNS to support the additional mission of analyzing and resolving national
security hits.




        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 37
Recommendation 5: Implement an automated system that stores applicants’
biometric information and supports its use in security checks.

Recommendation 6: Implement an automated system that supports running,
documenting, reviewing, and monitoring security checks.

USCIS Response: USCIS will deploy the Biometric Storage System in the
fourth quarter of FY 2006 and the Background Check System in the third
quarter of FY 2006.

OIG Evaluation: USCIS’ proposed actions are responsive to the
recommendations, which are resolved and open.

Recommendation 7: Define accountability and timelines for implementing
changes to the security check process that include the development of the plan
for completion of security checks, check completion objectives, and
reorganized management controls.

USCIS Response: As of September 19, 2005, USCIS designated FDNS as the
lead on all security check-related activities. As discussed in recommendations
2, FDNS will develop the plan for security check completion.

OIG Evaluation: This recommendation is resolved and open. In its action
plan, USCIS should note the timeline for completion of changes to the
security check process discussed in its response to this report.




        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 38
Appendix A
Purpose, Scope and Methodology




We evaluated the adequacy and efficiency of the security checks that USCIS
conducts to help identify unqualified alien beneficiaries, particularly terrorists
and criminal aliens, and to deny their applications for immigration benefits.
We examined the security check processes and procedures USCIS uses to
detect fraud and identify mala fide applicants. We assessed the scope and
depth of the security checks that USCIS performs to identify whether there are
gaps in coverage and opportunities for increasing coverage. We reviewed
USCIS’ implementation of the security checks to learn whether checks are
completed, properly conducted, and concluded with timely denials and law
enforcement/fraud referrals when appropriate. Finally, we examined the
efficiency of USCIS’ implementation of the security checks, including
frequency of duplicate checks and resources required for processing.

We analyzed laws and regulations related to immigration benefits and security
checks; USCIS documentation, including guidance, directives, SOPs,
manuals, policy memoranda, training materials, quality assurance reports, and
Internet websites; various reports from the GAO and DOJ and DHS OIG on
immigration benefits processing, fraud and security checks, and the
management of immigration programs; and other related reports and articles.

During our review we conducted over 125 interviews and teleconferences.
The majority of the interviews took place during our site visits to three USCIS
service centers, four district offices, two asylum offices, two application
support centers, and two file storage facilities. We spoke with senior officials
at USCIS headquarters and at the Department of State, FBI, the Directorate of
Border and Transportation Security, ICE, EOIR, and US-VISIT.

As part of our data analysis, we sampled over 600 immigration and asylum
files for evidence of security check completion. Focusing on applications
USCIS approved in FY 2004, we selected a random sample of eight different
form types for which USCIS does not provide monthly, national quality
assurance checks. These included two asylum-related forms that receive 100
percent supervisory review of security check completion. Based on inspector
judgment, we sampled approximately 300 forms at each of two sites: the
National Records Center (five form types) and the Harrisonburg storage
facility (three form types).

Our fieldwork was conducted from October 2004 to March 2005. The review
was conducted under the authority of the Inspector General Act of 1978, as
amended, and according to the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.


        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 39
Appendix B
Management Response to Draft Report




        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 40
Appendix B
Management Response to Draft Report




        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 41
Appendix B
Management Response to Draft Report




        A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                          Page 42
                          Appendix C
                          Security Checks for USCIS Immigration Forms




                          Figure 4: Security Checks for USCIS Immigration Forms

                                                                                             FBI
                                                            FY 2004    FY 2004        IBIS Finger- FBI
                                                    FORM Application Application      Name print Name IDENT
                                                    TITLE Receipts41 Completions42    Check Check Check Asylum
                                                      I-765
               Application for Employment Authorization 1,555,176       1,919,980       yes
                                                       I-90
       Application to Replace Permanent Resident Card         624,583   1,111,469       yes      yes
                                                      I-130
                                Petition for Alien Relative   712,320     831,042       yes
                                                      I-485
           Application to Register Permanent Residence
                                        or to Adjust Status   605,505     742,333       yes      yes      yes
                                                     N-400
                            Application for Naturalization    662,788     639,377       yes      yes      yes
                                                      I-131
                        Application for Travel Document       437,441     557,193       yes
                                                      I-129
                     Petition for a Nonimmigrant Worker       418,125     433,744      yes43
                                                      I-539
     Application to Extend/Change Nonimmigrant Status
                                             (Supp A also)    251,735     280,687       yes
                                                      I-751
        Petition to Remove the Conditions on Residence        175,324     137,875       yes
                                                      I-821
            Application for Temporary Protected Status         13,826     126,493       yes      yes
                                                      I-589
     Application for Asylum and Withholding of Removal        32,85944    110,646       yes      yes      yes      yes
                                                      I-140
                     Immigrant Petition for Alien Worker       80,348      85,844       yes
                                                     N-600
              Application for Certification of Citizenship     57,803      66,513       yes
                                                      I-824
      Application for Action on an Approved Application
                                                or Petition    29,140      37,253       yes
                                                      I-881
           Application for Suspension of Deportation or
       Special Rule Cancellation of Removal (NACARA)          12,36845     35,441       yes      yes     yes       yes


41
   USCIS Performance Analysis System data.
42
   USCIS Performance Analysis System data.
43
   Unnamed applicants on blanket petitions do not receive IBIS checks.
44
   RAPS data.
45
   RAPS data.


                                    A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                      Page 43
                      Appendix C
                      Security Checks for USCIS Immigration Forms




                                                                                       FBI
                                                          FY 2004    FY 2004     IBIS Finger- FBI
                                                 FORM Application Application Name print Name IDENT
                                                 TITLE Receipts41 Completions42 Check Check Check Asylum
                                                   I-730
                        Refugee/Asylee Relative Petition      26,715      33,377 yes
                                                  N-565
           Application for Replacement Naturalization/ 29,405         30,740      yes
                                   Citizenship Document
                                                   I-600
                                                           28,066     29,913      yes   yes
  Petition to Classify Orphan as an Immediate Relative
                                                   I-102
    Application for Replacement/ Initial Nonimmigrant 20,231          23,343      yes
                           Arrival/ Departure Document
                                                   I-360
         Petition for Amerasian, Widow(er), or Special 12,600         11,403      yes
                                               Immigrant
                                                  N-336
   Request for Hearing on a Decision in Naturalization     9,659      10,100      yes
               Proceedings under section 336 of the Act
                                                   I-817
                                                           6,697      9,584       yes   yes
                  Application for Family Unity Benefits
                                                   I-698
       Application to Adjust Status From Temporary to       226        944        yes
                 Permanent Resident (IRCA applicants)
                                                  N-300
                                                            205        753        yes
            Application to File Declaration of Intention
                                                  N-470
                  Application to Preserve Residence for     579        537        yes
                                Naturalization Purposes
                                                   I-914
                 Application for T Nonimmigrant Status      566        507        yes   yes
                   (supporting form -B, family form -A)
                                                   I-690
    Application for Waiver of Grounds of Excludability
                                                            393        316        yes
    under sections 245A or 210 of the Immigration and
                                          Nationality Act
                                                   I-829
                                                            123        310        yes
        Petition by Entrepreneur to Remove Conditions
                                                   I-526
                                                            247        290        yes
             Immigrant Petition By Alien Entrepreneur
                                                   I-694
                                                            155        248        yes
                            Notice of Appeal of Decision
                                                 I-914A
                                                             86        117        yes   yes
Application for T Nonimmigrant Status (family form -A)
                                                  N-644
                                                              9         3         yes
                Application for Posthumous Citizenship



                              A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                Page 44
                      Appendix C
                      Security Checks for USCIS Immigration Forms




                                                                                      FBI
                                                        FY 2004    FY 2004     IBIS Finger- FBI
                                               FORM Application Application Name print Name IDENT
                                                TITLE Receipts41 Completions42 Check Check Check Asylum
                                                 I-192
                                                        data not   data not
                   Application for Advance Permission                           yes   yes   yes
                                                        available  available
                             to Enter as Nonimmigrant
                                                 I-212
                                                        data not   data not
  Application for Permission to Reapply for Admission                           yes
                                                        available  available
           into the U.S. After Deportation or Removal
                                               I-600A data not     data not
                                                                                yes   yes
Application for Advance Processing of Orphan Petition available    available
                                                 I-601 data not    data not
                                                                                yes   yes   yes
   Application for Waiver of Grounds of Excludability available    available
                                                 I-602
                                                        data not   data not
                 Application By Refugee For Waiver of                           yes
                                                        available  available
                               Grounds of Excludability
                                                 I-612
                                                        data not   data not
                          Application for Waiver of the                         yes
                                                        available  available
                      Foreign Residence Requirement
                                                  I-94 data not    data not
                                                                                yes
                             Arrival-Departure Record available    available

                      In addition to security checks performed on people, USCIS may conduct
                      security checks on businesses (for example, those submitting an I-129,
                      Petition for Nonimmigrant Worker) and schools (for example, those
                      submitting an I-17, School Approval).




                              A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                                                Page 45
Appendix D
Major Contributors to Report




Office of Inspections

Douglas Ellice, Chief Inspector
Randall Bibby, Chief Inspector
David M. Hiles, Chief Inspector
Wynne Krause, Inspector
Kirsten Murray, Inspector
Melissa Keaster, Inspector




         A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                           Page 46
Appendix E
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretariat
Under Secretary, Border and Transportation Security
Director, Bureau of Citizenship and Immigration Services
Assistant Secretary, Public Affairs
Assistant Secretary, Legislative Affairs
Assistant Secretary of Policy
Deputy Chief Security Officer
OIG Audit Liaison
CIS Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress

Congressional Oversight and Appropriations Committees




         A Review of U.S. Citizenship and Immigration Services’ Alien Security Checks
                                           Page 47
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; or write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
